CERTIFICATE OF WORD COUNT
No. TBD
Phillippe Buhannic,
Petitioner(s),
v.
New York Southern District Federal Court,
Respondent(s).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Philippe Buhannic
Petition for Extraordinary Writ contains 6705 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'fieDeus
December 13, 2019

SCP Tracking: Buhannic-65 Central Park West, Unit 17 A-Cover White

